 Office of Inspector General
      Audit Report


FISMA 2011: PERSISTENT WEAKNESSES
 IN DOT'S CONTROLS CHALLENGE THE
  PROTECTION AND SECURITY OF ITS
       INFORMATION SYSTEMS
        Department of Transportation

         Report Number: FI-2012-007
        Date Issued: November 14, 2011
                       Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FISMA 2011: Persistent Weaknesses in                                        Date:    November 14, 2011
           DOT's Controls Challenge the Protection and
           Security of its Information Systems
           Department of Transportation
           Report Number: FI-2012-007

  From:    Calvin L. Scovel III                                                            Reply to
                                                                                                        JA–20
                                                                                           Attn. of:
           Inspector General

    To:    Chief Information Officer

           The Department of Transportation's (DOT) operations rely on more than 400
           systems—nearly two-thirds of which belong to the Federal Aviation
           Administration (FAA). These systems represent an annual investment of
           approximately $3 billion—one of the largest information technology (IT)
           investments among Federal civilian agencies. The Department's financial
           systems manage and disburse approximately $90 billion in Federal funds
           annually. During 2011 alone, computer hackers have placed a number of major
           entities' IT systems at risk, including those at the Central Intelligence Agency and
           Google.

           To protect the information systems that support Federal operations from cyber
           threats, the Federal Information Security Management Act (FISMA) of 2002
           requires agencies to develop, document, and implement agencywide information
           security programs. FISMA also requires agency program officials, chief
           information officers (CIO), and Inspectors General to conduct annual reviews of
           their agencies' information security programs and report the results to the Office
           of Management and Budget (OMB). As part of this review, OMB requires
           Inspectors General to use 127 security metrics to assess their agency's
           performance.

           Consistent with FISMA and OMB requirements, our overall audit objective was
           to determine the effectiveness of DOT’s information security program and
           practices. Specifically, we assessed DOT’s (1) information security policy and
           procedures; (2) enterprise-level information security controls; 1 (3) system-level
           1
               For purposes of this report, enterprise-level controls are those controls that should be implemented Department-
               wide—security training, incident response and reporting, capital planning and investment control, and configuration
               management—and are generally not system-specific.
                                                                                                                   2


security controls; and (4) management of information security weaknesses. As
also required by OMB, we provided our results to OMB via its Web portal. 2

To conduct our audit and address OMB's 127 metrics, we tested a statistical
sample of 64 out of 445 systems, performed analytical reviews of data contained
in the Department’s Cyber Security Assessment and Management system
(CSAM), tested user accounts in 19 general support systems, reviewed supporting
documentation, and interviewed departmental officials. We conducted this audit
between February and October 2011 in accordance with generally accepted
Government auditing standards. Exhibit A details our scope and methodology.


RESULTS IN BRIEF
Despite improvements the Department made to its security controls over the past
year, its information security program does not meet Federal requirements and is
still not as effective as it should be. Furthermore, the Department has successfully
addressed only 19 of the 25 recommendations that remained open since
November 2009, and 6 of the 27 recommendations we made in our last FISMA
report, issued in November 2010. Following are details of our findings.

1. The Office of the Chief Information Officer (OCIO) has not developed the
   required procedural guidance to augment its high-level security policy in order
   for Operating Administrations (OA) to manage information security
   effectively. OCIO focused its efforts on revising its existing policy and
   created a strong and flexible cybersecurity policy for the Department, except
   for the Office of the Secretary of Transportation (OST). According to OCIO,
   OST management had differing views on needed policy changes. Because
   agreement was not reached, OST, which includes the Common Operating
   Environment 3 (COE), is operating without a cybersecurity policy. These
   weaknesses in OCIO's policy and procedures contribute to the other issues we
   identified.

2. The Department has not made sufficient progress to implement enterprise-
   level controls. While the Cyber Security Management Center (CSMC)
   implemented controls that enabled it to confirm that it reported all major
   security incidents that it received to the Department of Homeland Security
   (DHS), other weaknesses persist. For example, DOT is still unable to
   effectively track how many contractors it has on board or manage security
   baseline configurations for all of its systems. Although more OAs have tools


2
    OMB has designated this information as “For Official Use Only.” Consequently, our submission to OMB is not
     contained in this report.
3
    COE provides network infrastructure support to DOT's Headquarters and remote offices, except FAA and Federal
     Motor Carrier Safety Administration field sites.
                                                                                                                       3


       to assess compliance with Federal Desktop Core Configuration (FDCC) 4
       requirements, which prescribe secure settings for Windows Experience (XP)
       software, DOT's compliance has dramatically declined from 90 percent to 70
       percent since our last review. Furthermore, the Department does not have any
       controls that ensure information security is incorporated in its capital planning
       and investment process.

3. DOT has not established adequate controls to protect its systems or to recover
   them in the event of a disruption. While the completeness of certification and
   accreditation (C&A) documents has improved, significant weaknesses in the
   C&A process remain. For example, we project that for 239 of its 445 5
   systems, or 54 percent, the Department did not properly test the minimum
   security controls required by the National Institute of Standards and
   Technology (NIST). We also found than half of the systems in our sample had
   missing or incomplete contingency plans for system recovery in case of
   disruptions, and over 40 percent of critical systems did not have adequate
   backup facilities or testing of their contingency plans. The Department also
   lacked adequate controls over continuous monitoring of system security,
   oversight of contractor-operated systems and their security, and remote access
   and account management. For example, the Department does not use two-
   factor authentication to secure remote access to its systems, and we identified
   network accounts assigned to individuals no longer employed by DOT.

4. DOT has not effectively identified, tracked, or prioritized information security
   weaknesses in plans of action and milestones (POA&M) to efficiently resolve
   these weaknesses. The Department tracked approximately 4,700 system
   weaknesses but did not remediate over a third of them within approved
   timeframes—a slip in performance compared to last year.

Together, these weaknesses significantly increase the risk that systems will
become victim to cyber attacks or disruptions that can compromise the integrity,
availability, and confidentiality of data needed to fulfill DOT's missions.

We are making a series of recommendations to assist the Department in the
establishment and maintenance of an effective information security program—
one that complies with FISMA, OMB, and NIST requirements. Exhibit C
identifies the recommendations from our two prior reports that the Department
still needs to resolve.



4
    FDCC are security configuration settings developed by the National Institute of Standards and Technology (NIST),
     the Department of Defense, and the Department of Homeland Security (DHS) for certain Windows operating
     systems, including XP. OMB has mandated agencies to adopt these settings.
5
    Our estimate is has a margin of error of +/- 9.1 percent, and 90 percent level of confidence.
                                                                                           4


BACKGROUND
A secure global digital information and communications infrastructure is one of
the President’s seven guiding principles in the protection of the American
people. 6 As the White House has reported, both the Federal Government and the
private sector face cybersecurity threats, including terrorists and international
crime groups that target U.S. citizens, commerce, critical infrastructure, and the
Government with attempts to compromise computer-based information.
Undeterred, these individuals could undermine national security and degrade civil
liberties.

FISMA requires each Federal agency to develop, document, and implement an
agencywide program to secure the information and information systems that
support the operations of the agency, including those provided or managed by
another agency, contractor, or other source. FISMA also requires each agency to
report annually to OMB, Congress, and the Government Accountability Office on
the effectiveness of its information security policies, procedures and practices. In
support of and reinforcing this legislation, OMB, through Circular A-130,
Appendix III, Security of Federal Automated Information Resources, requires
executive agencies within the Federal Government to plan for security, ensure
that appropriate officials are assigned security responsibility, periodically review
the security controls in their information systems, and authorize system
processing prior to operations and periodically thereafter.

DOT tracks its 445 information systems by 13 components. Exhibit B lists the 13
components and their respective number of systems. For purposes of reporting
under FISMA, we consider "operating administrations" to include all 13
components.

Since 2001, we have reported on weaknesses in DOT's information security
program and practices. Our three most recent reports noted the following.

• In October 2008, we reported that the Department’s information security
  program and practices were not effective. 7 Specifically, DOT had not
  established adequate policies, procedures, and training to identify weaknesses
  in information security and protect computer systems and networks, including
  those containing personally identifiable information (PII), or recover them
  should an incident occur. We made 27 specific recommendations to address
  these deficiencies.

• In November 2009, we reported that DOT had issued its information security
  policy—the first step in the development of a sustainable information security

6
    White House Issues: Homeland Security (www.whitehouse.gov/issues/homeland-security).
7
    DOT Information Security Program, FI-2009-003, October 8, 2008.
                                                                                                            5


       program—and improved the COE's FDCC compliance. 8 However, the
       Department had not made sufficient progress in other areas. Its information
       security program did not meet all Federal requirements and was not as
       effective as it should have been. We made 27 additional recommendations to
       correct critical vulnerabilities and assist DOT in the establishment of a more
       mature information security program.

• In November 2010, we reported that the Department had successfully
  provided security awareness training to over 90 percent of its employees, but
  had not made sufficient progress in other critical areas. 9 The Department's
  information security system was still not effective. In its assurance letter to the
  President, the Department reported that its compliance with FISMA during
  2010 constituted a material weakness in internal controls.

For 2011, OMB added one additional reporting area for IGs audits—Capital
Planning and Investment Control—and increased the number of metrics in the
other 10 reporting areas. The 127 metrics for IGs' 2011's review represents a
20 percent increase over the prior year. OMB also changed the "certification and
accreditation" reporting area to "risk management" to align with NIST's 800-37
Revision 1, Guide for Applying the Risk Management Framework to Federal
Information Systems, dated February 2010.

DESPITE IMPROVEMENTS, DOT’S INFORMATION SECURITY
POLICY AND PROCEDURES REMAIN INADEQUATE

Although it has made improvements, the Department's information security
policy and procedures are still inadequate. FISMA requires each Department's
Chief Information Officer to develop and maintain information security policies,
procedures, and control techniques to address security requirements. In prior
reports, we recommended revisions to the Department's policies that direct its
OAs' security efforts. In June 2011, OCIO issued a strong and flexible
cybersecurity policy for the Department. However, according to OCIO, OST
management had differing views on needed policy changes. Because agreement
was not reached, OST, which includes the Common Operating Environment
(COE), is operating without cybersecurity policy. Furthermore, as stated in our
prior three reports, the OAs have limited or no procedural guidance from OCIO to
instruct them on how to effectively and consistently implement information
security. Table 1 details the deficiencies in the Department's policy and
procedures.




8
    Audit of DOT's Information Security Program and Practices, OIG Report FI-2010-023, November 18, 2009.
9
    Timely Actions Needed to Improve DOT's Cybersecurity, OIG Report FI-2011-022, November 15, 2010.
                                                                                                  6



Table 1: Deficiencies in Policy and Procedures
FISMA Security Program Area                  Office of Inspector General's (OIG) Evaluation

Certification and Accreditation (C&A) of Controls

The assessment of security controls to       C&A procedures remain in draft form.
determine if the controls have been
implemented effectively.

Continuous Monitoring of Controls
Required as part of the security             Procedures are not sufficiently detailed to guide
authorization process to ensure that         Agency personnel in the development of practices
controls remain effective over time.         for the monitoring of their systems.

Plans of Action and Milestones (POA&M)

Tracks the measures implemented to           Revised policy references procedural guidance
correct security weaknesses and eliminate    that remains in draft form.
vulnerabilities.

Security Awareness and Specialized Training
Annual training required by FISMA for        Policy does not require all Government and
Government and contractor personnel.         contractor personnel—those who use information
                                             systems as well as those who do not—to receive
                                             training, and procedures are not sufficiently
                                             developed to guide OAs in identification, tracking
                                             and validation of contractors that require annual
                                             security training.
Capital Planning and Investment Control

Policy and procedures that ensure that       The policy and procedures for management of
security funding is incorporated in system   security costs as part of IT capital planning are
life-cycles.                                 not developed.
Account and Identity Management
Controls for management and monitoring of The procedures are not sufficiently developed to
network accounts.                         guide OAs in establishment of controls. For
                                          example, procedures do not fully address
                                          conditions for group memberships, approval
                                          processes, conditions required to grant access,
                                          and temporary accounts, among other things.
Configuration Management
Policy and procedures that ensure that all   Does not include detailed procedural guidance for
system owners have implemented               management of policy requirements. For
approved security control baselines.         example, there is little guidance on the adoption
                                             of hardware and software security baselines.


Contractor Oversight
                                                                                                                          7



FISMA Security Program Area                              Office of Inspector General's (OIG) Evaluation
Monitoring of the effectiveness of support               Policies and procedures do not include an OMB-
system security provided or managed by                   compliant definition of "contractor system."
contractors, or other agencies or sources.
Remote Access
Components for telework and remote                       Procedures do not establish an effective
access, including client devices, servers,               approach to identification, monitoring, tracking
and internal resources, should be secured                and validation of users and equipment that
against known possible weaknesses,                       remotely access DOT networks and applications.
including the lack of controls for physical
security, the use of unsecured networks,
connections between infected devices and
internal networks, and the availability of
internal resources to external hosts.
Source: OIG Analysis

The lack of adequate Departmentwide guidance on security requirements creates
a possibility that OAs will develop internal procedures and practices that may not
comply with OMB or DOT's requirements, and has contributed to the other
weaknesses documented in this report.

DOT LACKS THE ENTERPRISE-LEVEL CONTROLS NEEDED TO
SAFEGUARD ITS IT SYSTEMS

DOT's Departmentwide controls—those that must be implemented at the
enterprise level—are still inadequate to ensure its contractors receive the required
security training, security incidents are detected and reported, configuration
baselines are appropriately managed, and security costs are considered when
planning IT investments.

DOT Cannot Accurately Track Contractors' IT Security Training

FISMA requires agencies to develop and maintain a comprehensive security
training program that ensures that all computer users 10 are adequately trained in
their security responsibilities before they are allowed access to agency
information systems. Furthermore, both FISMA and OMB require agencies to
provide basic security awareness training to employees and contractors that never
access computer systems as well as to those who do. However, as we have
previously reported, the Department lacks a system that effectively tracks all
contractors working for the Department, and therefore cannot determine whether
its contractors have received required training. Further, because DOT policy
requires its CIOs only to ensure that all users of DOT's information system


10
     Users may include employees, contractors, foreign or domestic guest researchers, other agency personnel, visitors,
     guests, and other collaborators or associates requiring access.
                                                                                                                  8


receive training, many non-users, who frequently are contractors, do not receive
training or are not accounted for.

For 2011, DOT attempted to establish a baseline number of contractor personnel
by using a list of currently employed contractors extracted from its Personal
Identity and Verification Badge System. However, the Department had no way to
confirm that all employed contractors were included in the baseline. Moreover, in
contrast to FISMA and OMB policy, 11 it removed from the list contractors that
did not appear to have access to IT systems because of the services they provide,
such as security guards and janitorial. Contractor tracking issues represent
significant security risks to the Department because personnel without security
awareness training are more likely to become victims of social engineering or
commit acts that compromise information security.

The Department's Incident Reporting Process Does Not Monitor All
DOT Networks

DOT has instituted controls to improve reporting of intrusion incidents, but does
not monitor all of its networks for intrusion. OMB policy requires departments to
report several categories of security incidents to DHS's U.S. Computer
Emergency Readiness Team (US-CERT). Last year, we found that DOT's
reporting process did not ensure that all of the required incidents were reported to
US-CERT.

Since then, FAA's CSMC has instituted new controls that provide reasonable
assurance that all incidents it receives from OAs get reported to US-CERT.
However, CSMC does not monitor all DOT networks. For example, because
CSMC does not monitor the United States Merchant Marine Academy's
(USMMA) network, it does not receive any intrusion detection reports from the
Academy. Furthermore, CSMC monitors only two of the National Airspace
System's (NAS) many systems. Because it cannot be sure that all incidents are
discovered, the Department risks cyber attacks going undetected and
unaddressed.

The Department Has Not Fully Met Configuration Standards

OMB requires compliance with minimally acceptable system configuration
requirements for commercial software. Configurations that meet these
requirements provide a baseline level of security and ensure the efficient use of
resources. However, we found deficiencies in DOT's compliance with FDCC
settings, and incomplete implementations of other configuration standards


11
     OMB M-11-33, FY 2011 Reporting Instructions for the Federal Information Security Management Act and Agency
     Privacy Management.
                                                                                                                    9


throughout the Department. Inadequately configured software also increases
security vulnerabilities that could impact DOT’s mission and business operations.

OAs Are Not in Compliance With FDCC Requirements

OMB requires agencies that have deployed certain software, such as the Windows
XP operating system, to adopt FDCC security configurations settings. OMB also
requires departments to meet all NIST configuration settings in order for them to
be 100 percent compliant with configuration standards. We drew a statistical
sample of 903 out of 90,169 OA computers for the OAs to scan for compliance
with controls; they scanned 437 systems but the other 466 were not operating or
were otherwise unavailable. 12 We estimate that 70 percent 13 of controls are
compliant with FDCC requirements, a decline of approximately 20 percentage
points from 2010. None of the computers tested was fully compliant with NIST
settings. Table 2 shows the total controls tested and passed.


Table 2: FDCC Sample Test Results of Controls for Windows
Operating System at OAs

OA                                                                     Tested         Passed       % Passed
FAA                                                                   119,984          74,513         62.10%
Federal Motor Carrier Safety Administration (FMCSA)                      7,788           5,511        70.76%
      a
COE                                                                    15,171          11,040         72.77%
Surface Transportation Board (STB)                                     20,856            9,928        47.60%
John A. Volpe National Transportation Systems
                                                                       15,806          11,347         71.79%
Center (Volpe)
USMMA                                                                    8,547           5,232        61.21%
      b
OIG
                       c
Department Totals                                                     188,152         117,571         62.49%
Source: OIG
a
  The Department consolidated OAs' network infrastructures (email, desktop
computing, and local area networks) into a common IT infrastructure.
b
  On July 22, 2011, OIG informed us that it did not use Security Content Automation
Protocol tools. After the conclusion of our fieldwork, OIG informed us that it did for
FDCC.
c
  Totals may not add due to rounding.



We also noted the following areas in which DOT did not comply with FDCC
requirements.
12
   Scanning tools test only computers that are operating during a scan. Other routine factors can contribute to a
   scanning tools inability to test a specific computer.
13
   The estimate has a margin of error of +/-11.5 percentage points at the 90% confidence level.
                                                                                                                             10



• One of the Department's controls for the use of approved configuration
  settings is the application of uniform approved settings at all workstations.
  However, numerous settings that should have been identical at all
  workstations were different. For example, FMCSA had almost 30 different
  settings among its computers. We did not determine the cause for the
  variations in settings, but such differences can be caused by malware or
  viruses.

•       OMB requires agencies to use Security Content Automation Protocol 14
        (SCAP)-validated tools to certify that their systems comply with FDCC and
        United States Government Configuration Baseline (USGCB) standards. Once
        agencies have deployed these standard configurations to personnel's
        computers, they are required to monitor and manage the configurations to
        ensure they are not modified. Three OAs either had less than 100 percent
        standard configurations deployed on their systems or did not provide
        evidence of total deployment. For example, OIG did not use SCAP tools to
        ensure compliance for its systems.

• Agencies may create deviations from control settings when it determines that
  the settings impact operations, such as the running of legacy applications.
  However, if an OA opts to create such deviations, the OCIO must review and
  approve them to prevent exploitation of system weaknesses that the deviations
  may create. OCIO had not approved the majority of deviations for
  noncompliant settings noted in SCAP scan testing. COE and OIG requested
  and received approvals for some of their deviations, but other OAs did not
  submit requests to OCIO for approvals.


OAs' Configuration Management Procedures Do Not Comply with NIST
and DOT Policy

Six OAs––OIG, FMCSA, OST (COE), Research and Innovative Technology
Administration (RITA) (Volpe), Maritime Administration (MARAD) (USMMA)
and FAA–have security configuration management procedures that do not
conform to NIST and DOT's policies because they have not implemented
standard baseline configurations for all of the hardware and software they use.
OAs must also perform scanning to verify that their system configurations are
correct and that they have applied all security patches. OIG, USMMA and an
FAA line of business (LoB) did not have sufficient controls over their software


14
     NIST created SCAP to work with IT communities to develop common configuration standards. As part of the
     SCAP program, NIST-accredited laboratories test tools and submit their results to NIST. If the results are favorable,
     NIST validates the tool.
                                                                                                                           11


scanning capabilities. Furthermore, USMMA and three FAA LoBs, including
CSMC, did not have fully developed patch management processes.



The Department's Capital Planning and Investment Control Process
Does Not Adequately Address Security

DOT does not adequately plan security investments as part of its capital planning.
FISMA requires agencies to integrate IT security into their capital planning
processes. OMB further requires agencies to plan for and track IT security costs
throughout each investment's life cycle. According to OST, the Department has
no specific policies and procedures for the estimation, tracking, and reporting of
returns on security investments. Specifically, we found the following: 15

• For fiscal year 2012, OCIO reported that it will focus on the development of
  policy, process, and use of a tool that support OAs' security controls and in
  funding decisions. But OCIO provided no plan for this effort.

• Five of 13 OAs (38 percent)—FAA, MARAD, RITA, STB, and OST—did
  not provide adequate information or documentation that identified their
  methodologies for security funding estimations and criteria for security
  project selection.

• Five OAs (38 percent)—FMCSA, Federal Railroad Administration (FRA),
  MARAD, OIG, and Pipeline and Hazardous Materials Safety Administration
  (PHMSA)—did not receive the fiscal year 2011 IT security funds they
  requested. FAA and RITA did not provide documentation that they had
  received security funding. Furthermore, OCIO requested $30 million for
  security, but did not receive any. OCIO did not provide a plan for the
  reprioritization of expenditures as a result of this funding issue.

THE DEPARTMENT'S SYSTEM-LEVEL CONTROLS ARE NOT
SUFFICIENT TO KEEP SYSTEMS SECURE OR ENSURE
RECOVERY

The Department's system-level controls are insufficient to protect the security of
information systems and ensure that the systems can be recovered should a
serious breach occur. We found deficiencies in C&A and contingency plan
testing, continuous monitoring, oversight of contractor-operated systems, and
controls over remote access and account and identity management.

15
     We will provide further detail on these findings in our upcoming report on the Department's enterprise architecture
     program. We will also provide related recommendations in that report.
                                                                                                                  12



C&A and Contingency Plan Testing Are Incomplete

As of October 7, 2011, eight systems were unaccredited, meaning they were not
authorized to operate (see Table 3). OMB Circular A-130, Appendix III,
"Security of Federal Automated Information Resources," requires systems to be
reauthorized—or reaccredited—at least once every 3 years through a C&A
process. Certification of a system requires assessing risk, planning security,
testing of minimum security controls, creating plans of actions for identified
weaknesses, and mitigating risks. The 8 unaccredited systems represent a notable
improvement over last year when we found 41 systems that were unaccredited.
This improvement was brought about by MARAD's successful identification and
accreditation of its systems.

Table 3: Summary of Systems with Expired C&A

                                                                                      Expiration          Total
OA                  System Name
                                                                                           Date        Systems
FMCSA               FMCSA Service Centers                                               6/11/2010            1

OST                 Correspondence Control Management System                          10/31/2010             1
RITA                RITA- Web                                                           5/31/2010

                    RITA- Mission Support                                               7/30/2009

                    RITA- TSI Infrastructure                                            1/02/2010

                    RITA-Transtats                                                      5/16/2011

                    RITA-Everbridge Mass Notification System                            7/22/2011            5

STB                 Case Management System                                              11/6/2010            1

Total DOT Systems with Expired C&As                                                                          8
Source: CSAM

Based on our sample of 64 systems, we estimate that 403 of 445 systems, or
91 percent, had complete C&A documentation. 16 However, 239 or 54 percent, did
not have adequate security control testing, 17 while only 179, or 40 percent, had
both complete C&A documentation and adequate security control testing. 18 See
Table 4 for details of our results.




16
   Our estimate has a margin of error of +/-22 or 5.0 percent at the 90 percent level of confidence.
17
   Our estimate has a margin of error of +/-40 or 9.1 percent at the 90 percent level of confidence.
18
   Our estimate has a margin of error of +/-40 or 9.1 percent at the 90 percent level of confidence.
                                                                                              13



Table 4: Review of 64 Sample Systems' C&A and
Contingency Plans

OA                                       Systems       Systems Systems with       Systems
                                           tested           with inadequate         without
                                                       deficient     control   contingency
                                                    or no C&As       testing          plans
COE                                            2             0            0              0
FAA                                           33             2           21              0
Federal Highway Administration (FHWA)          3             0            2              0
FMCSA                                          3             0            1              1
FRA                                            2             0            0              0
Federal Transit Administration (FTA)           2             0            0              0
MARAD                                          4             1            4              1
National Highway Transportation Safety
                                               2             2            0              1
Administration (NHTSA)
OIG                                            2             0            1              0
OST                                            4             0            0              0
PHMSA                                          2             0            1              2
RITA                                           2             1            0              0
Saint Lawrence Seaway Development
                                               1             0            0              1
Corporation (SLSDC)
STB                                            2             0            2              2
Total                                         64             6           32              8
Source: OIG Analysis

DOT also lacks an effective plan for recovery of its IT systems in the event of a
disaster or other disruptions, as required by NIST and OMB. Agencies must also
periodically test their contingency plans to ensure they will actually work if
needed. Of the sample 64 systems, 36, or 56 percent, had missing or inadequate
contingency plans or tests (see Table 4).These included the following:

• Untested contingency plans
• Unsuccessful disaster recovery exercises
• No contingency plan training for personnel
• No contingency plan testing approaches
• Inadequate process for data backup
• 40 percent of critical systems had either no alternative processing site or an
  alternative processing site that was exposed to same risks as primary site
• Tabletop instead of functional exercises performed for critical systems

Without proper C&A and contingency planning, the Department's systems are not
properly assessed for risk and independently tested. Consequently, system
                                                                                                               14


weaknesses may not be identified and sufficiently mitigated. Furthermore,
without complete contingency testing, systems may not be recoverable from an
unplanned shutdown in time to minimize business disruption.

The Department's Continuous Monitoring of Security Controls Is
Ineffective

In June 2011, the Department issued policy on continuous monitoring but has yet
to develop guidance or issue an approved Departmentwide strategic plan.
NHTSA, FRA and FTA have developed internal guidance; however, most OAs
are not complying with existing OMB guidance. For example:

• 7 of 13 (54 percent) OAs did not conduct ongoing assessments of security
  controls;
• 11 of 13 (85 percent) OAs did not have a continuous monitoring strategy; and
• 10 of 13 (77 percent) OAs did not have any continuous monitoring
  procedures.

The Department's lack of guidance on continuous monitoring of security controls
limits OAs' abilities to monitor their systems' security. It also diminishes their
ability to respond quickly to new threats, and affects how well the Department
implements security solutions in its highly dynamic environment.

The Department Does Not Identify Its Contractor-Operated Systems
in Accordance with OMB Guidance

OMB requires agencies to establish and maintain oversight programs, including
inventories, for systems operated by contractors or other entities. 19 However, the
Department's methods for identifying contractor-operated systems do not comply
with OMB's requirements. As detailed in Table 5, DOT reports a decline in
inventory of contractor systems from 33 in fiscal year 2010 to 19 in fiscal year
2011. Of the 64 sample systems, DOT had designated 2 as contractor systems.
However, we determined that 26 of the 64 systems, including COE, met OMB's
criteria for contractor systems. Consequently, DOT is underreporting contractor
systems.




19
     OMB defines "contractor system" as any system fully or partially provided or managed by another agency,
     contractor, or other source.
                                                                                     15


Table 5: Fiscal Years 2009 Through 2011Comparison of
Contractor Systems

                                Fiscal Year
OA                       2009         2010       2011
FAA                        10           13          8

FHWA                        1             0         0
FMCSA                       3             4         2
FRA                         6             6         0
FTA                         5             0         0
NHSTA                       2             2         3
OST                        14             4         3
PHMSA                       3             3         2
RITA                        2             1         1

Total                      46           33         19
Source: CSAM


DOT's incorrect classification of systems resulted from OCIO's instructions to
classify as contractor systems only those that are both owned and operated by
contractors. Contractor systems represent higher risk to the Department because it
frequently does not manage security controls in such systems. Without an
accurate inventory of these systems, the Department cannot know which systems
pose these higher risks.

The Department's Controls over Remote Access Remain
Deficient

The Department's remote access controls still do not meet Department and NIST
policies and guidance on the control of remote system access. For example:

• COE, Volpe, FMCSA, and FAA have not developed procedures that fully
  comply with NIST guidance for authorizing, monitoring and controlling
  remote access.
• COE, STB and Volpe require Government and contractor personnel to have
  only identifications and passwords for remote access to applications. With the
  exception of FAA and STB, OAs rely on COE for remote access. However,
  COE's remote access capability does not require multi-factor authentication.
  There is no multi-factor authentication implemented within DOT, with the
  exception of certain FAA LoBs.
                                                                                                                   16


• MARAD, FMCSA, STB and RITA did not identify all remote devices.
• FAA, FMCSA, and STB's remote devices and computers are not properly
  secured and monitored. COE informed us that it needs additional resources to
  ensure that all remote devices are properly secured and monitored.

Without effective controls over remote access, DOT cannot ensure that only
authorized computers and personnel access its information systems, and risks the
deployment of malware on its networks or loss of sensitive information.

The Department's Account and Identity Management Are Inadequate

We reviewed the 3 of DOT's 19 general support systems for disabled accounts, 20
and found that the Department's account and identity management controls are
deficient in several areas, including issuance of accounts, disabling of accounts,
distinguishing of user accounts from non-user accounts, deployment of personal
identity verification (PIV) cards, and use of dual accounts for administrators. In
May 2009, OCIO issued Departmentwide policies to implement security controls
for account management, and user identification and authentication. These
policies state that OAs and their LoBs are responsible for implementing the
requirements, and that Chief Information Security Officer should validate
compliance with the procedures.

Network Accounts Are Not Properly Issued to Users

Three FAA LoB networks had accounts that were not properly issued. For
example:

• Two LoBs had instances where unauthorized staff submitted and approved
  requests to create accounts for new users;
• Two LoBs did not sufficiently separate among different staff the duties for
  creation, modification and disabling of accounts; and
• One LoB did not always verify the authority of account requestors and
  approvers to create accounts.

We also found instances in which employees had unauthorized membership in
network groups. Network account groups assign the same access rights to all
members to simplify administration. Employees with unauthorized membership
will acquire the group's access rights. We also found one LoB that could not
determine whether certain users had group memberships. These improper account
creation and privilege assignment processes increase the risk that users may gain
unauthorized or excessive access to network functions.


20
     These three general support systems are FAA networks that have approximately 58,000 or 75% of the estimated
     77,000 DOT active user accounts.
                                                                                                                              17


Network Administrators Do Not Disable Accounts in a Timely Manner

User accounts in Department systems had not been disabled after lengthy periods
of inactivity. DOT's policy states that information systems should disable user
identifiers after 30 days of inactivity for high-impact systems 21 and 60 days for
moderate-impact systems. 22 Table 6 details the 5760 accounts, all of them high
and moderate impact, that were not disabled in a timely manner. We also
discovered active accounts whose users were deceased or retired.

Table 6: Accounts Not Disabled in a Timely Manner

System Name                                    Disabling Period                 System Category                  User
                                           >30 days          > 60 days        High         Moderate          Accounts

AVS-INF (Internal)                                                                                                 356
AVS-INF (External)                                                                                               2,110
COE                                                                                                              1,048
CSMC IDPS                                                                                                              5
FAA/ATO LAN                                                                                                      1,173
            a
FAA/ARC                                                                                                            144
FAA/ARP LAN                                                                                                        100
FAA/ASH HQ LAN                                                                                                       62
FAA AST LAN                                                                                                          14
FMCSA Service Centers                                                                                                36
USMMA LAN                                                                                                          644
OIG Infrastructure                                                                                                   45
STB LAN                                                                                                              23
Source: OIG
Note: We were unable to extract data from Volpe LAN and IRMS due to missing information in
the network directory.
a
  Includes ARC LANS, AML LAN, RTF LAN, AWA & Hangar 6, CMEL, MMAC File and
Print


The disabling of accounts in an untimely manner may lead to unauthorized access
to information and systems by individuals who no longer have authorized access.




21
   "Impact" refers to the impact that the loss of a system's confidentiality, integrity, or availability can be expected to
   have on organizational operations, assets, or individuals. "High impact" would have a severely adverse effect.
22
   DOT CIOP 1351.15, issued May 2009, outlines the disabling period for user identifiers according to impact level.
   DOT CIOP 1351.37, issued July 2011, requires user identifiers be disabled after 60 days of inactivity. During our
   review, we followed the criteria established in DOT CIOP 1351.15, which was in effect at the time.
                                                                                    18


Network Administrators Do Not Properly Distinguish Account Types

NIST requires agencies to segregate account types—individual, group, system,
application, guest/anonymous, or temporary—and to distinguish account types
between user and non-users. However, the three FAA networks that we tested did
not comply with these requirements because the administrators of these networks
did not follow DOT's naming standards when they established the accounts.
Without accurate identification of user and non-user accounts, the Department
cannot properly control access to its information systems. Table 7 provides
examples of incorrect account names among these three networks.

Table 7: Summary of Account Naming Errors

Network       Type of Account        Erroneous Account      Correct Account
                                     Name                   Name or Format
FAA AVS       Service                ricoh                  sa-ricoh

              Test                   ASI1                   T_AS I1

              Service Account for    RJE-AFS700             sa_RJE-AFS700
              AFS700 RJE Printer

FAA ATO       Service                ame530-backup-svc      SRVC-ame530-backup

              Undetermined           AMA100X2               Undetermined

FAA ARC       Undetermined           Archibus1              Undetermined


Source: OIG



FAA Has Not Completed Deployment of Multifactor Authentication for
Local Access to Networks

While FAA LoBs use tokens for multifactor authentication for remote access to
networks, they have not implemented multifactor authentication for local access.
FAA is implementing PIV cards as its two-factor authentication for local access,
and is scheduled to complete the process by January 2012. However, one of the
systems we reviewed did not have a PIV implementation plan for logical access,
including log-on access. Furthermore, FAA is not scheduled to fully implement
the use of PIV cards for physical access to systems, such as access to buildings,
until December 2014.

Because multifactor authentication has not been fully implemented, DOT cannot
sufficiently identify and authenticate authorized users. Individuals who are not
properly authenticated may be able to share user identification and passwords.
                                                                                                                  19


Lack of full deployment of PIV cards for physical access increases the risk of
authorized access to secured facilities.

Not All Network Administrators Have Dual Accounts

None of the three FAA LoBs we reviewed had implemented dual accounts for all
administrators. NIST guidance requires agencies to separate duties through
assigned system access authorizations including different accounts for different
roles. For example, a system administrator who has an email account on the
network he or she administers should have an administrator account and a user
account. This individual would use only the user account to access email.
Because administrator accounts have greater access to computer resources, the
use of such accounts to perform non-administrator functions increases the
likelihood that malware such as viruses will infect DOT networks.

DOT CONTINUES TO LACK AN EFFECTIVE PROCESS FOR THE
REMEDIATION OF SECURITY VULNERABILITIES

The Department's remediation of security weaknesses remains ineffective due to
weaknesses in oversight and an incomplete POA&M database. FISMA requires a
process for the planning, implementation, evaluation, and documentation of
actions that address information security weaknesses. OMB policy requires
departments to develop POA&Ms for detected system weaknesses and prioritize
remediation of the POA&Ms' based on the severity of the weaknesses, which
DOT designates as high, medium or low. To facilitate weakness remediation,
departments must centrally track all POA&Ms. DOT uses CSAM for this
purpose. To evaluate its performance in POA&M management, DOT developed
IT Vital Signs, a module that places reports on the Department's intranet and
includes a coding system indicating management's remediation success. 23 While
IT Vital Signs represents progress, it may not be accurate. For example, DOT's
current report indicates that the Department's status across all OAs is average,
with all OAs having acceptable, or above average, performance. However, 34
percent, or 1,565 of 4,668 open POA&Ms passed their due dates for resolution,
including 374 that are over a year overdue, and 88 that have no target completion
dates (see Table 8). The 34 percent overdue represents a 9 percentage point
increase over the prior year.




23
     OCIO developed formulas to extract information from CSAM to generate IT Vital Signs' assessment of DOT and
     OA management's POA&M performance.
                                                                                            20



Table 8: DOT's Open POA&Ms and Days Overdue

OA and                          Days Overdue                 Summary of Timeliness Issues
Number of
                                             121 -           No Due  Total  To Become
Open POA&Ms
                 1 - 60   61 - 90 91 - 120    365    > 365    Date  Overdue  Overdue
 COE      15      0         0         3         2     0        0        5         10
 OCIO     111     10        0         7         9    46        10       82        29
 FAA     3,891   215       17        53        689   263       22     12 5 9     26 3 2
FHWA      108     0         0         0         0     0        0        0         10 8
FMCSA      1      0         0         0         0     0        1        1          0
 FRA      62      35        0         0         0     0        1        36        26

 FTA      66      1         0         0         1     1        2        5         61

MARAD     127     5         1         2         0     0        10       18        10 9
NHTSA      3      0         0         0         0     0        0        0          3
 OIG      29      12        3         1         5     8        0        29         0
 OST      100     13        1         1         8     1        0        24        76
PHMSA     16      0         0         0         1     0        9        10         6
 RITA     29      0         0         0         8     3        18       29         0
SLSDC      4      0         0         0         0     0        0        0          4
 STB      106     0         0         0         0    52        15       67        39
 Total   4,668   291       22        67        723   374       88     15 6 5     31 0 3



Source: DOT Open POA&Ms in Cyber Security Assessment and Management (CSAM) system
as of August 9, 2011


DOT has changed its remediation time requirements twice during the past 2 years
(see Table 9). The timeframes in place during our review were flawed because
they are shorter for low priority weaknesses than high priority. DOT recognizes
this flaw needs to be corrected, but has yet to issue its final revised timeframes.
                                                                                         21



Table 9: Changes to Time Requirements for Remediation

POA&M          DOT Order 1351.6       DOT Order 1351.30          DOT Order 1351.37
                                                                                  a
Priority                                                         Draft Procedures
High           Remediate within 24    Develop a remediation plan Remediate within 30
               hours                  within 90 working days     working days
Moderate       Remediate within 20    Remediate within 90        Remediate within 90
               working days           working days               working days
Low            Remediate within 60    Remediate within 30        No remediation period
               working days           working days               specified
Source: OIG
a
  DOT Security Assessment and Authorization Guide, dated July 2010 (DRAFT)

In addition, OAs did not record all known weaknesses in CSAM. For example,
we detected over 3000 weaknesses in our 64 sample systems for which we could
not locate a POA&M in CSAM or other documentation in the C&As. We also
found that 32 systems had incomplete testing of minimum security controls, and
consequently, may have unidentified weaknesses.

Without an adequate POA&M remediation process, the Department cannot
ensure that its systems are adequately secured and protected. Weaknesses that are
unaccounted for, unresolved or unmitigated for extended periods of time create
the risk of exploitation that may compromise systems' availability and data
integrity.

CONCLUSION

The Department's ability to safeguard its IT systems from hackers and other
unauthorized users depends on its ability to implement and maintain adequate
security controls as prescribed by OMB and NIST, while keeping its networks
available to legitimate users. As technology progresses, so do the risks involved
in its use and the need to maintain a state-of-the-art cybersecurity program that
can respond quickly and effectively to any threat. Until DOT takes action to
follow requirements and address its persistent cybersecurity weaknesses it will
continue to expose its IT systems to these risks.

RECOMMENDATIONS

To help the Department address the challenges in developing a mature and
effective information security program, we recommend that the Chief Information
Officer take the following actions in addition to closing recommendations we
have previously made:
                                                                                    22


Information Security Policy

1. Address these policy and procedural weaknesses:

   o Issue information security policy for OST.
   o Enhance existing policy to address security awareness training for non-
     computer users, address security costs as part of capital planning, correct
     the definition of "government system", and address the identification,
     monitoring, tracking and validation of users and equipment that remotely
     access DOT networks and applications.
   o In conjunction with the OA CIOs, execute a strategy to ensure that
     sufficient procedural guidance exists for DOT and the OAs.

Enterprise-Level Weaknesses

2. In conjunction with OA CIOs, establish incident monitoring and detection
   capabilities to include all of the Department's systems and facilitate central
   and real-time reporting.

Information System Security

3. In conjunction with OA CIOs, create, complete or test contingency plans for
   deficient systems.
4. In conjunction with OA CIOs, verify that backup media are properly secured
   and regularly tested.
5. In conjunction with OA CIOs, verify that minimum security controls are
   adequately tested for deficient systems.


AGENCY COMMENTS AND OIG RESPONSE

A draft of this report was provided to the Department’s CIO on October 24, 2011.
On November 9, 2011, we received the Department CIO’s response, which can
be found in its entirety in the Appendix.
                                                                                      23


ACTIONS REQUIRED

In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your detailed action plans and target dates for the
recommendations in this report within 30 calendar days. We will review the Chief
Information Officer’s detailed action plans when provided to determine whether
they satisfy the intent of our recommendations. All corrections are subject to
follow-up provisions in DOT Order 8000.1.C. We appreciate the courtesies and
cooperation of the CIO Office and the Operating Administrations’ representatives
during this audit. If you have any questions concerning this report, please call me
at (202) 366-1959; Lou E. Dixon, Principal Assistant Inspector General for
Auditing and Evaluation, at (202) 366-1427; or Louis C. King, Assistant
Inspector General for Financial and Information Technology Audits, at
(202) 366-1407.



cc: Deputy Secretary
    Assistant Secretary for Budget and Programs/Chief Financial Officer
    CIO Council Members
    Martin Gertel, M-1
                                                                                       24


EXHIBIT A. Scope and Methodology

The Federal Information Security Management Act of 2002 (FISMA) requires us
to perform an independent evaluation to determine the effectiveness of the
Department’s information security program and practices. FISMA further requires
that our evaluation include testing of a representative subset of systems and an
assessment, based on our testing, of the Department’s compliance with FISMA
and applicable requirements. On September 14, 2011, the Office of Management
and Budget (OMB) issued M-11-33, FY 2011, Reporting Instructions for the
Federal Information Security Management Act and Agency Privacy Management,
which provides instructions to Inspectors General for the completion of their
FISMA evaluations and the required OMB template.

To meet FISMA and OMB requirements, we selected a representative subset of 64
of 445 departmental systems (see Table 10) and reviewed the compliance of these
systems with NIST and OMB requirements in the following areas: risk
categorization; security plans; annual control testing; contingency planning;
certification and accreditation; incident handling; and plans of actions and
milestones. In order to gain greater insight into information security at the OA
level, we doubled our sample size from the 30 used in the prior year. To evaluate
FDCC compliance within the Department, we selected a stratified sample of 903
out of 90,169 devices to be scanned for compliance. We created a script to extract
the test results of FDCC controls from 437 out of 903 devices that were available
for scanning.

For account and identity management, we reviewed 3 of the largest of DOT's 19
general support systems. These three systems are FAA networks that comprise 75
percent or 58,000 of DOT's active user accounts. We also conducted testing to
assess the Department’s inventory, its overall process for resolution of information
security weaknesses, configuration management, incident reporting, security-
awareness training, remote access, and account and identity management. Our
tests included analysis of data contained in the Department’s CSAM system,
reviews of supporting documentation, and interviews with departmental officials.


Table 10: OIG’s Representative Subset of DOT Systems, by OA

No.   System                                                  Impact     Contractor
                                                              Level      System? b
Federal Aviation Administration
1     Business Communications System                          Moderate       No
2     Common Operating Environment                            High           Yes


Exhibit A. Scope and Methodology
                                                                                              25


No.   System                                                          Impact     Contractor
                                                                      Level      System? b
3     ATO Network                                                     Moderate      No
4     Interim Voice Switch Replacement System                         Moderate      Yes
5     Investment Management Tool                                      Moderate      Yes
6     Air Route Traffic Control Center Critical and Essential Power   Low           No
      System Power Monitoring System
7     Aeronautical Mobile Communications System                       Moderate      Yes
8     AVS Registry System                                             High          No
9     Backfill and Overtime System                                    Moderate      Yes
10    Simulator Inventory and Evaluation Scheduling System            Moderate      No
11    Capability and Architecture Tool Suite                          Low           Yes
12    Runway Safety Tracking System                                   Low           Yes
13    Automated Desktop Support                                       Low           No
14    Low-Level Windshear Alert System                                Moderate      No
15    Regulatory Guidance Library                                     High          No
16    Quality Management Information Technology System                Moderate      No
17    Flight Data Input/Output                                        Low           Yes
18    Host Interface Device / National Airspace System Local Area     Moderate      No
      Network
19    Multi-System Access Tool - Airman & Aircraft                    Moderate      No
20    Weather System Processor                                        Moderate      No
21    Information Resource Management System                          Low           No
22    Enterprise Services Center Business Systems                     Moderate      No
23    WJHTC Enterprise Data Center                                    Moderate      No
24    Performance Data Analysis and Reporting System                  Moderate      Yes
25    Corporate Work Plan                                             Moderate      No
26    Automated Weather Observation System Data Acquisition           Low           No
      System
27    Terminal Doppler Weather Radar                                  Moderate      No
28    System Architect                                                Low           No
29    Project Document Library                                        Moderate      No
30    Remote Maintenance Monitoring System                            Moderate      No
31    Office of Aviation Safety Infrastructure                        High          No
32    Risk Based Resource Targeting                                   Moderate      Yes
33    AVS Electronic Form Service                                     Moderate      No
34    Cost Accounting System                                          Moderate      No
35    Advanced Qualification Program                                  Low           Yes
Federal Highway Administration
36    Course Management and Training System                           Moderate      Yes
37    Motor Fuels and Finance Analysis System                         Low           Yes
38    National Bridge Inventory System                                Moderate      Yes

Exhibit A. Scope and Methodology
                                                                                              26


    No.   System                                                      Impact     Contractor
                                                                      Level      System? b
    Federal Motor Carrier Safety Administration
    39    Analysis and Information                                    Moderate      No
    40    Licensing and Insurance                                     Moderate      No
    41    National Registry of Certified Medical Examiners Web Site   Low           Yes
    Federal Railroad Administration
    42    CAB Technology Integration Laboratory                       Low           No
    43    Railroad Credit Risk Assessment System                      Low           Yes
    44    Financial Management System                                 Moderate      Yes
    Federal Transit Administration
    45    FTA Inter/Intranet                                          Moderate      Yes
    Maritime Administration
    46    USMMA LAN                                                   Moderate      Yes
    47    USMMA Student Information System                            Moderate      Yes
                                                                           c
    48    Port of Anchorage                                           NC            Yes
    49    Mariner Outreach System                                     Moderate      Yes
    National Highway Transportation Safety Administration
    50    Support Delivery Services Low Impact System                 Low           No
    51    Mgmt Gov't Resource Low Impact System                       Low           Yes
    Office of Inspector General
    52    US DOT/OIG Infrastructure                                   Moderate      No
    53    US DOT/OIG TIGR System                                      Moderate      No
    Office of the Secretary of Transportation
    54    Parking and Benefit Transit System                          Moderate      Yes
    55    Grants Information System                                   Low           Yes
    56    Rulemaking Management System                                Moderate      Yes
    57    Delphi                                                      Moderate      No
    Pipelines and Hazardous Materials Safety Administration
    58    Hazmat Intelligence Portal                                  Moderate      Yes
    59    FEDStar                                                     Low           No
    Research and Innovative Technology Administration
    60    RITA Web                                                    Moderate      No
                                                                           c
    61    External SharePoint                                         NC            No
    SLSDC
    62    Financial Management System                                 Low           No
    STB
    63    Case Management System                                      Moderate      No
    64    Local Area Network                                          Moderate      No
    Source: OIG
a
    See Exhibit B for full Operating Administration names.


    Exhibit A. Scope and Methodology
                                                                                          27

b
    DOT Cyber security Definition of Contractor System
c
    Not Categorized

    As required, we submitted to OMB qualitative assessments pertaining to DOT’s
    information security program and practices. OMB requires that our FISMA
    submission include information from all OAs, including OIG. In addition to the
    preparation of our submission, we reviewed the Department’s progress in
    resolution of weaknesses and implementation of recommendations identified in
    our prior FISMA reports.

    We performed our information security review work between February 2011 and
    October 2011. We conducted our work at departmental and OA Headquarters'
    offices in the Washington, D.C., area as well as regional offices in Oklahoma City,
    Melbourne, Florida, and King's Point, New York. We conducted our audit in
    accordance with generally accepted Government auditing standards. Those
    standards require that we plan and perform the audit to obtain sufficient,
    appropriate evidence to provide a reasonable basis for our findings and
    conclusions based on our audit objectives. We believe that the evidence obtained
    provides a reasonable basis for our findings and conclusions based on our audit
    objectives.

    Previous audit reports on the Department’s information security program issued in
    response to FISMA's mandate include the following:

    • Timely Actions Needed to Improve DOT's Cybersecurity, FI-2011-022,
      November 15, 2010

    • Audit of DOT's Information Security Program and Practices, FI-2010-023,
      November 18, 2009
    • DOT Information Security Program, FI-2009-003, October 8, 2008
    • DOT Information Security Program, FI-2008-001, October 10, 2007
    • DOT Information Security Program, FI-2007-002, October 23, 2006

    • DOT Information Security Program, FI-2006-002, October 7, 2005
    • DOT Information Security Program, FI-2005-001, October 1, 2004
    • DOT Information Security Program, FI-2003-086, September 25, 2003

    • DOT Information Security Program, FI-2002-115, September 27, 2002
    • DOT Information Security Program, FI-2001-090, September 7, 2001

    Exhibit A. Scope and Methodology
                                                                                                       28


EXHIBIT B. DOT OPERATING ADMINISTRATIONS AND SYSTEM
INVENTORY COUNTS

Table 11: OA System Inventory Counts for Fiscal Years 2011 and
2010

                                                                                  Fiscal Year
                              a
Operating Administration                                                    2011                2010
Federal Aviation Administration                                             297                 290
Federal Highway Administration                                               21                 22
Federal Motor Carrier Safety Administration                                  18                 21
Federal Railroad Administration                                              13                 13
Federal Transit Administration                                                5                   5
Maritime Administration                                                      25                 21
National Highway Traffic Safety Administration                               11                 11
Office of Inspector General                                                   2                   2
Office of the Secretary                                                      31                 33
Pipeline and Hazardous Materials Safety Administration                        5                   6
Research and Innovative Technology Administration                            14                 13
Saint Lawrence Seaway Development Corporation                                 1                   1
Surface Transportation Board                                                  2                   2
  Total Systems                                                             445                 440
 Source: OIG, and DOT CSAM as of August 6, 2010
a
  For purposes of reporting under FISMA, we consider "Operating Administrations" to include all
  components listed above.




Exhibit B. DOT Operating Administrations and System Inventory
           Counts
                                                                                                 29


EXHIBIT C. Status of Prior Year’s Recommendations

Table 12: OIG Recommendations for Fiscal Year 2010, and Their
Status

No. Status    Recommendation

1   Partially Address these policy and procedural weaknesses:
    closed    • Develop procedural guidance for the C&A process. In addition, modify
                existing certification and accreditation policy and procedures to address
                inheritance of common information security controls, and to provide procedural
                guidance to modes.
              • Correct POA&M policy to prioritize weaknesses in a way that ensures that
                high priority weaknesses are resolved before medium priorities, and medium
                ones before low ones. In addition, develop procedural guidance to ensure
                consistency of the POA&M process and to facilitate CIO's oversight and
                management of weaknesses.
              • In conjunction with the modes, develop procedural guidance for tracking and
                training personnel with significant security responsibilities. This guidance
                should address maintaining complete inventories of such personnel, and the
                training needed and provided.
              • Enhance high-level policy with procedural guidance to ensure consistency of
                the network accounts and identity management.
              • In conjunction with the Assistant Secretary for Administration, complete
                Department-wide PIV operating procedures, including procedures to terminate
                PIV cards.
              • Review and revise all configuration management policy and develop specific
                details for activities that are common across the department. As part of this
                effort, develop procedural guidance that would define requirements for OAs to
                use when developing configuration management procedures specific to their
                operation.
              • Develop procedural guidance that would define requirements for OAs to use
                when developing incident handling procedures specific to their operation.
              • Enhance policy and procedural guidance to incorporate detailed guidance for
                managing, monitoring and reporting FDCC compliance, including the use of
                SCAP tools to ensure FDCC compliance. Once policy adequately addresses
                contractor oversight per Recommendation 4 of last year's report, develop
                relevant procedural guidance. This policy should establish the criteria and
                guidelines for DOT’s identification and reporting of contractor systems
                consistent with OMB requirements
              • Enhance high-level policy with procedural guidance to ensure remote access
                and wireless networking is authorized, managed and monitored in compliance
                with OMB, NIST and DOT policies.
2   Open      To the extent the OAs require their own guidance, review guidance to verify
              compliance with department policies and procedures.
3   Open      Implement a quality assurance process to review OA specific configuration
              management procedures to ensure that they adhere to the departmental policy
              and Federal requirements.
4   Open      Implement a process to review OAs security configuration management practices
              and software scanning capabilities. Provide monitoring of OAs practices to
              ensure they are adhering to the policy and practices.




Exhibit C. Status of Prior Year’s Recommendations
                                                                                                       30


No. Status    Recommendation

5    Closed   Require OST to implement required system patches on their Delphi system.
6    Open     Conduct scanning of all DOT networks to ensure compliance with FDCC
              requirements. In addition, review results of modal SCAP compliance scans to
              identify and resolve incorrect FDCC settings.
7    Open     Require and approve deviation requests for those non-conforming settings that
              are truly needed and for which risks have been mitigated and accepted.
8    Open     Conduct periodic tests to assess FDCC compliance and deployment of patches,
              including service packs.
9    Open     Analyze the incorrect FDCC configuration settings identified in our testing, and
              for those that do not have approved deviations, require OAs to create POA&Ms
              to correct the settings.
10   Open     Implement a practice to review OA specific incident handling procedures to
              ensure that they adhere to the departmental policy.
11   Closed   Implement a process to review reported incidents to ensure timely reporting to
              US-CERT. In addition, provide monitoring of incidents reported to ensure all
              required data in the tracking system(s) is up-to-date for incidents sent and data
              received back for US-CERT.
12   Open     Review FHWA, FMCSA, FRA, FTA and RITA automated scans confirming timely
              resolution of vulnerabilities. If deficiency is found require OA to provide
              corrective action and to update plan of actions and milestone to address
              weakness.
13   Open     Require OAs to reconcile their contractor records with DOT security department
              and update their records accordingly. Monitor and report to the Deputy Secretary,
              Operating Administrations’ progress in resolving the discrepancy with their
              contractor records and DOT security department.
14   Open     Identify and implement automated tools to better track contractors and training
              requirements.
15   Closed   In conjunction with the MARAD, create a POAM for each system that is missing a
              certification and accreditation. This POAM should be properly prioritized to
              ensure this critical matter is immediately addressed.
16   Closed   In conjunction with MARAD, promptly update Cyber Security Assessment and
              Management (CSAM) system to reflect its current system inventory and related
              information (including status of certification and accreditation).
17   Closed   Work with MARAD to finalize agreements with C&A service providers to certify
              MARAD systems.
18   Open     Review the results of OA assessments to determine an accurate inventory of
              contractor systems.
19   Open     Work with the Department's acquisition personnel to develop common contract
              language that requires IT contractors to enforce applicable FISMA and OMB
              requirements. Once this language is approved, review all new planned IT
              acquisitions, prior to award, to verify that this clause is contained in the statement
              of work or comparable document.
20   Open     Research and standardize automated tools that will proactively monitor remote
              devices connecting to DOT networks.
21   Open     Conduct tests of remote access solutions to ensure they comply with Federal
              requirements and DOT guidance.




Exhibit C. Status of Prior Year’s Recommendations
                                                                                                 31


No. Status    Recommendation

22   Closed   In conjunction with the Assistant Secretary for Administration, develop a
              Department-wide implementation plan that specifies resources needed,
              responsible parties, strategies for risk mitigation, etc., to ensure that all
              employees and contractors receive PIV cards by December 31, 2010.
23   Open     Implement the use of PIV cards as the primary authentication mechanism to
              support multi-factor authentication at the system and application level for all
              DOT's employees and contractors.
24   Open     Perform periodic reviews of active user accounts and network devices to identify
              accounts that need to be disabled.
25   Open     Work with OAs to identify and logically segregate user accounts and service
              (role) accounts.
26   Open     Work with OAs to implement automated mechanisms to disable inactive
              accounts, as specified by DOT policies, and to audit account creation,
              modification, disabling, and termination actions.
27   Open     Educate and assist OAs in implementing dual accounts for administrators.
              Subsequently, conduct reviews to determine that all DOT GSSs use these
              accounts.
Source: OIG




Exhibit C. Status of Prior Year’s Recommendations
                                                                                                       32



Table 13: OIG Recommendations for Fiscal Year 2009, and Their
Status

No. Status    Recommendation
1    Closed   Revise the incident response policy to identify conditions under which incidents
              should be reported to law enforcement (i.e., OIG), how the reporting should be
              performed, what evidence should be collected, and how it should be collected
2    Closed   Revise the security awareness and training policy to include the identification of
              all users, such as employees, contractors, and others requiring access to DOT
              information systems. Include provisions in the policy to separate these active
              user accounts from the non-person accounts.
3    Closed   Revise training policy to list the job functions that require specialized security
              training and the type of specialized training that is required for those job functions
              as described in NIST SP 800-16.
4    Closed   Revise policy to address security of information and information systems
              managed by contractors, including information security roles and responsibilities,
              security control baselines and rules for departures from baseline, and rules of
              behavior for contractors and minimum repercussions for noncompliance.
5    Closed   Revise the interface agreement policy to incorporate necessary elements, such
              as purpose of the interconnection, description of security controls, schematic of
              interconnection, timelines for terminating or reauthorizing the interconnection,
              and authority of establishing the interconnection.
6    Closed   Revise the plan of action and milestones policy to address all the OMB
              requirements, including description of weakness, scheduled completion date, key
              milestones, changes to milestones, source of the weakness, and status.
7    Closed   Ensure that the Federal Aviation Administration, Saint Lawrence Seaway
              Development Corporation, and Pipeline and Hazardous Materials Safety
              Administration have deployed DOT approved configuration baselines and tools to
              assess implementation status.
8    Open     Use automated tools to periodically verify status of completion reported by
              Operating Administrations and identify deviations from the approved baseline
              configurations.
     Closed   Require Operating Administrations to manage identified deviations from approved
9             baseline configurations by tracking and resolving significant baseline
              configuration weaknesses in plan of actions and milestones.
10   Closed   Work with Operating Administration Chief Information Officers to ensure that all
              new IT contracts include the acquisition language on common security
              configurations as required by DOT and OMB M-07-18.
11   Closed   Work with the CSMC to develop a process to ensure that all Department of
              Homeland Security reference numbers are received and entered into the DOT
              tracking system for confirmation.
12   Closed   Develop and establish a tracking system that effectively and routinely accounts
              for all active contractors requiring security awareness training.
13   Closed   Develop a mechanism to enforce that all employees including contractors with
              login privileges have completed the required annual security awareness training
              in order to gain and maintain access to Department information systems.
14   Closed   Identify and ensure all employees with significant security responsibilities take the
              necessary specialized security training to fulfill their responsibilities.


Exhibit C. Status of Prior Year’s Recommendations
                                                                                                        33


No. Status        Recommendation
15   Closed       Monitor, and report to the Deputy Secretary, Operating Administrations’ progress
                  in resolving long overdue security weaknesses, reestablishing target completion
                  dates in accordance with departmental policy, providing cost estimation for fixing
                  security weaknesses, prioritizing weaknesses, and recording all identified security
                  weaknesses in plan of actions and milestones.
16   Open         Ensure accurate information is used to monitor Operating Administrations’
                  progress in correcting security weaknesses.
17   Open         Require Chief Information Security Officer and Operating Administrations conduct
                  a review to identify all interfaces with systems external to the Department, ensure
                  related security agreements are adequate, and track them in the Cyber Security
                  Assessment and Management system.
18   Closed       Ensure that Maritime Administration properly inventories its information systems
                  and tracks them in the Cyber Security Assessment and Management system.
                  (MARAD)
19   Closed       Ensure that Maritime Administration certifies and accredits each system in the
                  revised inventory. (MARAD)
20   Open         Improve its quality assurance checks on the Operating Administrations’
                  certifications and accreditations by increasing the frequency and scope of its
                  checks, communicating results and expected actions to the Operating
                  Administrations, requiring updated plan of actions and milestones to address
                  weaknesses noted (including those found in the Inspector General reviews), and
                  follow-up on resolution of weaknesses noted.
              a
21   Closed       Require Federal Aviation Administration, Federal Highway Administration,
                  Federal Railroad Administration, Maritime Administration, Office of the Secretary
                  of Transportation and Pipelines and Hazardous Materials Safety Administration to
                  conduct system contingency testing of the systems that did not have evidence
                  that of such tests.
22   Open         Develop a process to ensure Operating Administrations continuously monitor and
                  test information system security controls.
23   Closed       Finalize the inventory count for systems containing privacy information.
24   Closed       Work with Operating Administrations to complete privacy impact assessments for
                  applicable information systems.
25   Closed       Work with the Federal Aviation Administration to establish a reasonable target
                  date for the completion of the reduction of social security numbers recorded in its
                  systems.
              b
26   Closed       Implement 2-factor authentication for remote access.
27   Open         Implement NIST-approved encryption on all mobile computers/devices.
Source: OIG
a
  Replaced with 2011 Recommendation No. 3
b
  Merged into 2010 Recommendation No. 23




Exhibit C. Status of Prior Year’s Recommendations
                                                             34


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
Name                               Title

Louis C. King                      Former Program Director

Nathan Custer                      Program Director

Michael Marshlick                  Project Manager

Lissette Mercado                   Project Manager

Gerald Steere                      Computer Scientist

James Mallow                       Project Manager

Martha Morrobel                    Information Technology
                                   Specialist

Tracy Colligan                     Information Technology
                                   Specialist

Felicia Moore                      Information Technology
                                   Specialist

James Mullen                       Information Technology
                                   Specialist

Nileshkumar Patel                  Information Technology
                                   Specialist

Jason Mott                         Information Technology
                                   Specialist

Jenelle Morris                     Information Technology
                                   Specialist

LaKarla Lindsay                    Referencer

Petra Swartzlander                 Statistician

Susan Neill                        Writer-Editor




Exhibit D. Major Contributors to this Report
                                                                                                             35


           APPENDIX. MANAGEMENT COMMENTS



                                                                       Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation


           ACTION: Management Response to the Office of
Subject:   Inspector General (OIG) Draft Report on Federal                            Date:
           Information Security Management Act

                                                                                      Reply To
  From:    Nitin Pradhan                                                               Attn. of:
           DOT Chief Information Officer


    To:    Calvin L. Scovel III
           Inspector General

           DOT Achieved Considerable Cybersecurity Progress in 2011

           During the past year, the Department made significant progress in addressing cybersecurity
           goals and vulnerabilities by leveraging the limited available resources to implement key
           Federal and departmental initiatives. These efforts are complicated by the fact that our
            systems must be operational around the clock every day of the year, and any changes must be
           completed while “keeping the lights on,” to support the critical day-to-day operations of the
           Department of Transportation (DOT). In addition to the OIG report’s recognition of our
           progress in issuing policies, implementing procedures, and providing cybersecurity
           awareness training throughout the Department, we also made considerable progress
           implementing focused efforts on some of the most pervasive threats to critical business
           support operations, including:

               •   Stabilized and Upgraded E-mail -- The DOT CIO prioritized resources to address
                   critical issues with enterprise e-mail. Actions included increasing the storage
                   available for replication of e-mail to an alternate site; upgrading server hardware and
                   software; and implementing Microsoft Exchange 2010 to bolster the security and
                   privacy of e-mail, a key Federal priority to reduce exposure to attacks such as
                   spearphishing and permit advanced information flow controls to prevent government
                   information from being transferred to non-government computers.

               •   Created IT Vital Signs -- We began implementing the IT Vital Signs performance
                   management dashboard as part of a continuous monitoring strategy to increase
                   visibility into cybersecurity performance and compliance and to assist DOT operating
                   administrations and other stakeholders in improving their security postures.

               •   Established Automated Data Feeds -- The DOT CISO and staff worked with the
                   Federal Aviation Administration (FAA), the Cyber Security Management Center




           Appendix. Management Comments
                                                                                                    36

                                                                                                2

      (CSMC) and the CIO’s own Information Technology Shared Services (ITSS) team to
      implement Department of Homeland Security (DHS) initiatives to improve cyber-
      situational awareness with Automated Data Feeds. Automated data feeds, which
      provide asset hardware and software information, assessment of vulnerabilities, status
      of compliance with secure configuration requirements, and the status of patches
      applied to the asset, were put in place to support the two largest technology
      infrastructure components in the Department. Since January 2011, the Department
       has used this important data to further improve cybersecurity. This data is providing
      vital information to improve processes; enhance visibility across Departmental
      networks; and develop repeatable processes for core cybersecurity program controls
      of asset management, vulnerability assessment, configuration management, and patch
      management.

  •   Expanded Trusted Internet Connections (TIC) – In response to recommendations
      arising from the Federal CyberStat assessment process, the Department fully
      implemented TIC version one critical capabilities. DOT's internet connections are
      protected by the DHS Einstein program and are being monitored for suspicious and
      malicious activity by both DHS and DOT. The Department continues to progress on
      migrating external connections to its TICs for improved security and is expected to
      complete this work before the end of fiscal year 2012.

  •   Established Domain Name System Security Extensions (DNSSEC) -- DOT
      implemented DNSSEC on all of the Department’s top level .GOV domains. This
      change resulted in additional internet-related security through data authentication and
      integrity verification that increases trust in DOT web sites and e-mail communications.

  •   Implemented Personal Identity Verification (PIV) cards -- DOT made tremendous
      progress issuing PIV cards to Federal employees throughout the Department—a time
      consuming, logistically complex, and costly endeavor that provides enhanced
      capabilities for both physical and logical access.

  •   Revamped Cybersecurity Leadership -- Senior DOT leadership enhanced the DOT
      cybersecurity program organizational structure to stand shoulder-to-shoulder with
      other cabinet-level Federal Departments by creating a new executive cybersecurity
      leadership position that will be responsible for overall cybersecurity management
      including building and maintaining Department-wide consensus and maintaining
      progress.

  •   Created Roadmap for Enterprise Authentication Services -- The DOT CIO prioritized
      resources to implement an enterprise authentication service. This service will enable
      employees to reduce the number of passwords and use DOT-issued PIV cards to access
      applications. The Department has integrated three large systems via this employee-
      originated initiative. We produced a roadmap for incorporating other agency systems
      and enabling the use of the PIV card for employee login over the next two years.




Appendix. Management Comments
                                                                                                          37




                                                                                                      3


    •    Solidified Vision for Secure Mobility Technologies -- The DOT CIO implemented a
         plan to address the telework and mobility needs of the Department, in keeping with
         the Department’s Strategic Plan and goals of reduced congestion, environmental
         stewardship, and security preparedness. The CIO’s plan included the development of
         security standards, policies, and procedures for ensuring the protection of agency
         information on mobile devices; an active pilot to test the standards and policies in the
         DOT environment; and the evaluation of technologies to improve the management
         and security of mobile technology.

    •    Expanded Enterprise Cybersecurity Related Governance -- DOT achieved significant
         progress in planning and implementing governance structure and activities relating to
         cybersecurity, including:

              o    IT infrastructure modernization plan and roadmap -- The DOT common
                   operating environment underwent extensive analysis that addressed DOT-
                   wide infrastructure security, solution architectures, and evolving customer
                   demands (e.g., mobility), to formulate a three-year action plan.

              o    Cybersecurity Integrated Project Team (IPT) and Steering Committee --
                   The DOT CIO established a Cybersecurity IPT composed of the DOT CISO
                   and security personnel from Office of the Secretary (OST) and Operating
                   Administrations (OAs) to provide focused effort on enhancing cybersecurity.

              o    Cybersecurity Policy Working Group -- The DOT CISO established a
                   cybersecurity policy working group consisting of security personnel from the
                   OAs to focus specifically on a comprehensive update to Departmental policy
                   and procedures.

              o    Cloud Management Group -- The DOT CIO established a Departmental
                   cloud management group to oversee and guide the agency’s evaluation of the
                   potential implications of expanding use of secure cloud services.

Achieving Cybersecurity Progress with Focus and Accountability

Maintaining and improving the security of our critical business information systems is an
absolute priority for the Department. My staff is in the process of closely reviewing the OIG
draft report and will provide a detailed plan of action, and milestones, addressing and
prioritizing each of the OIG recommendations before the end of the calendar year. We will
establish priorities and recognize modal accountability in formulating plans to move forward.

Establishing Priorities for 2012

Resources are increasingly constrained and it is unlikely that our cybersecurity program will
receive the additional resources as anticipated in our earlier planning. As a result, it is neither
realistic nor plausible to commit to addressing all of the issues described in the OIG draft
report in a single year. While the issues discussed in the OIG draft report are integral to




Appendix. Management Comments
                                                                                                         38




                                                                                                   4


    FISMA objectives, it is imperative that we focus our constrained resources on the highest
    priority actions.

    At this point, we anticipate focusing our cybersecurity efforts during 2012 to improve
    perimeter security, implement automated continuous monitoring, and move toward full
    implementation of PIV-centric multifactor authentication as resources become available. My
    office continues to collaborate with the various National Security staff members supporting
    the Federal Cybersecurity Coordinator, the Office of Management and Budget, and DHS to
    coordinate and achieve these efforts. To the extent that funding may be less than anticipated,
    effectively prioritizing these initiatives will ensure that all available resources are focused on
    the highest priority actions for the Department.

    Maintaining Accountability Throughout the Department

    While my office establishes and conveys policy through numerous channels to maintain a
    sense of cohesive direction for the Department’s cybersecurity efforts, in most cases,
    implementation must occur in the Operating Administrations. In order to gain the maximum
    benefit from limited resources and increase accountability, it would be highly constructive for
    future OIG efforts to provide detailed information in its reports segmented by Operating
    Administration. This would facilitate the Department’s ability to focus its efforts and increase
    accountability. Such reporting is consistent with the current financial audit process and would
    reduce duplicative reporting. Many of the key actions that must be taken to improve
    cybersecurity will depend on the coordinated and collaborative efforts of the Office of the
    Secretary (OST) and the Operating Administrations. The DOT OCIO will support progress
    through defining, developing, and aggressively tracking standards, policies, plans and
    roadmaps. Further, the Operating Administrations should implement improvements based on
    established priorities set in a collaborative environment, enumerating specific expectations,
    and utilizing available data to create tracking metrics to ensure accountability. Further
    enhancement of IT Vital Signs will help provide meaningful metrics to conduct departmental
    TechStats to assess progress and establish specific metrics for accountability.

    Overall, vigilance and further improvement to our cybersecurity posture is imperative to the
    effective functioning of the Department, the larger Federal community, and our Nation’s
    transportation systems. We take this responsibility seriously, and we do everything possible
    to ensure our systems are strong, resilient and managed in accordance with Federal
    requirements.




Appendix. Management Comments
